CERTIFICATE OF SERVICE
I hereby certify that on this 13th day of July, 2020, I electronically filed the
foregoing with the Clerk of the Court for the United States Supreme Court. I further certify that, as required by Sup. Ct. R. 29(3), I served one copy of the foregoing
via U.S. First Class Mail and electronic mail upon:

Jeffrey B. Wall,
Acting Solicitor General
Civil Division, Room 7230
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Counsel for Applicants
/s/ Catherine E. Stetson
CATHERINE E. STETSON

